United States v. Maria Gonzalez Maldonado, Petition for Certiorari No.

CERTIFICATE OF SERVICE
This is to certify that I have this day served Merrick Garland, Attorney
General listed below a copy of the attached Petition by depositing a copy of same in
the U.S. Mail in a properly addressed envelope, with adequate postage affixed
thereon to wit:
Elizabeth Prelogar
Acting Solicitor General of the United States,
Department of Justice,
950 Pennsylvania Ave., N.W., Room 5614,
Washington, D. C. 20530-0001
August 13, 2021
ls/Michael H. Saul
Michael H. Saul
Counsel for Petitioner
Georgia Bar No. 627025
P.O. Box 4504
301 Washington Ave.
Marietta, Georgia, 30061
404-281-1542
saulattorney@yahoo.com or saulattorney@gmail.com

1

United States v. Maria Gonzalez Maldonado, Petition for Certiorari No.

CERTIFICATE OF SERVICE

This is to certify that I have this day served Kurt Erskine, Acting United
States Attorney for the Northern District of Georgia, listed below a copy of the
attached Motion by depositing a copy of same in the U.S. Mail in a properly
addressed envelope, with adequate postage affixed thereon to wit:

Kurt Erskine, Acting United States Attorney
Calvin A. Leipold, III, Assistant United States Attorney
J. Elizabeth McBath, Assistant United States Attorney
600 U.S. Courthouse
75 Ted Turner Drive, SW
Atlanta, GA 30303
404-581-6000
August 13, 2021
ls/Michael H. Saul
Michael H. Saul
Counsel for Petitioner
Georgia Bar No. 627025
P.O. Box 4504
301 Washington Ave.
Marietta, Georgia, 30061
404-281-1542
saulattorney@yahoo.com or saulattorney@gmail.com
ls/Michael T. Ross
Michael Ross
Co-Counsel for Petitioner
Georgia Bar No. 763334
301 Washington Ave
Marietta, GA 30060
770-722-3661
mtrosslaw@gmail.com

2

